<html>
<title> - WOMEN IN A CHANGING CHINA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       WOMEN IN A CHANGING CHINA 

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2010

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-541 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                             C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Douglas Grob, Cochairman's Senior Staff 
  Member, Congressional-Executive Commission on China............     1
Story, Abigail, Research Associate and Manager of Special 
  Projects, Congressional-Executive Commission on China..........     2
de Silva de Alwis, Rangita, Director of International Human 
  Rights Policy, Wellesley Centers for Women.....................     3
Zhao, Katherine, student, Division of Social Sciences, University 
  of Chicago and former Fullbright Fellow........................     6
Lagon, Mark, former Ambassador-at-Large and Director, Office to 
  Monitor and Combat Trafficking in Persons (TIP), U.S. 
  Department of State............................................     8

                                APPENDIX
                          Prepared Statements

de Silva de Alwis, Rangita.......................................    26
Zhao, Katherine..................................................    28

                       Submission for the Record

From the East Asia Law Review, Volume 5, Issue 2 (2010), 
  ``Opportunities and Challenges for Gender-Based Legal Reform in 
  China,'' by Rangita de Silva de Alwis..........................    31


                       WOMEN IN A CHANGING CHINA

                              ----------                              


                         MONDAY, MARCH 8, 2010

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2 p.m., 
in room B-318, Rayburn House Office Building, Douglas Grob, 
Cochairman's Senior Staff Member, presiding.
    Also present: Charlotte Oldham-Moore, Staff Director; Kara 
Abramson, Advocacy Director; Abigail C. Story, Research 
Associate and Manager of Special Projects; and Anna Brettell, 
Senior Advisor, Congressional-Executive Commission on China.

 OPENING STATEMENT OF DOUGLAS GROB, COCHAIRMAN'S SENIOR STAFF 
      MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Grob. Well, good afternoon, everybody. Thank you for 
attending today's Congressional-Executive Commission on China 
[CECC] roundtable on ``Women in a Changing China.'' My name is 
Doug Grob, and I am Cochairman Sander Levin's Senior Staff 
Member on the Commission staff. I would like to recognize 
Charlotte Oldham-Moore, Staff Director of the Commission, in 
the audience. We would like to welcome you here on behalf of 
Chairman Byron Dorgan and Cochairman Levin.
    I will give a brief introduction and then turn it over to 
my colleague, Abigail Story, our staff specialist and research 
associate on women's issues. Then we will turn it over to the 
panelists, who each will have seven minutes to speak. Then 
we'll open the floor to questions from all of you.
    The topic of today's roundtable is women's issues in China, 
a fitting focus for today, International Women's Day. China 
ratified the Convention on the Elimination of All Forms of 
Discrimination Against Women in 1980, and 30 years later we are 
holding this roundtable today in part to ask, what has been the 
impact of this commitment, and what progress has been made, 
both at the central level and local levels in China, toward 
greater protection of women's rights. We hope to attain a 
deeper understanding today of what specific challenges remain.
    As this Commission has reported, most recently in our 2009 
Annual Report--and I invite you all to take a copy from the 
table outside--Chinese officials continue to pursue policies 
that aim to protect women's rights, in line with China's 
international commitments. There have been improvements in 
efforts to combat sexual harassment and domestic violence in 
China, and there has been significant development of a legal 
framework to support and institutionalize those efforts. 
Chinese authorities also have promoted women's employment and 
taken steps to eliminate gender-based discrimination in the 
workplace, which remains a widespread problem. We'll hear more 
about the challenges facing women in China from our panelists 
today.
    I will now turn the floor over to Abigail Story, our staff 
specialist and research associate on women's issues, to 
introduce our panel.

 STATEMENT OF ABIGAIL C. STORY, RESEARCH ASSOCIATE AND MANAGER 
                      OF SPECIAL PROJECTS

    Ms. Story. Thank you, Doug. I will briefly introduce the 
witnesses; however, I encourage you to take a look at their 
full bios on the sheet outside.
    Also, I just want to take a moment to remind you to turn 
your cell phones to vibrate if you haven't done so already.
    First, is Rangita de Silva de Alwis. Ms. de Silva de Alwis 
is director of International Human Rights Policy Programs at 
the Wellesley Centers for Women. Rangita has worked with a 
network of civil society and government organizations to 
develop innovative women's rights and human rights initiatives 
around the world. Her work focuses on using international human 
rights norms to guide law and reform initiatives.
    To my right is Katherine Zhao. Ms. Zhao is a graduate 
student at the University of Chicago and a Boren Fellow. Her 
current research focuses on popular contention and protests in 
China and cross-border human trafficking. She spent the 2008-
2009 academic year in China as a Fulbright Fellow, examining 
women's access to justice and social services. She also served 
previously as a Senior Research Associate at the CECC.
    Also to my right is Ambassador Mark Lagon. From 2007 to 
2009, Dr. Lagon served as Ambassador-at-Large and Director of 
the 
Office to Monitor and Combat Trafficking in Persons at the 
Department of State, statutorily chairing the U.S. Government's 
Interagency Group on TIP Policy. Until February 2010, Dr. Mark 
Lagon was Executive Director and CEO of the leading anti-human 
trafficking nonprofit agency, Polaris Project, headquartered in 
Washington, DC.
    Mr. Grob. Thank you, Abbey.
    We'll get started now. I just would like to preface the 
panelists' remarks by saying that we have asked our 
distinguished panel here to discuss women's issues in China 
from three perspectives. First, we have asked Rangita de Silva 
de Alwis to discuss gender-based legal reform in China in the 
context of the Chinese Government's international commitments. 
Ms. Zhao will then speak about the specific grassroots impact 
of government regulations, as well as the impact of general 
social conditions on the basic rights of women in the home, in 
the workplace, and in accessing public services.
    Finally, we have asked Ambassador Lagon to discuss China's 
efforts and the challenges China faces in the ongoing battle 
against human trafficking. We are just very privileged and 
honored to have the three of you here with us today, and thank 
you for joining us.
    I would like to turn the floor over now to Rangita de Silva 
de Alwis.

      STATEMENT OF RANGITA de SILVA de ALWIS, DIRECTOR OF 
 INTERNATIONAL HUMAN RIGHTS POLICY, WELLESLEY CENTERS FOR WOMEN

    Ms. de Silva de Alwis. The Beijing Women's Conference in 
1995 and its progeny, the Beijing Platform of Action, marked a 
watershed event in the history of local and global women's 
movements. The clarion call to take Beijing back home 
resonated, both locally and globally, and reverberated in 
China.
    Fifteen years after this historic event and 30 years after 
the landmark Convention on the Elimination of All Forms of 
Discrimination Against Women [CEDAW], is an important political 
moment for us to reflect on this twin legacy and how this has 
catalyzed gender-based lawmaking and mobilized women's groups 
in China to hold stakeholders accountable to both the letter 
and the spirit of the guarantees enshrined in the CEDAW.
    In the final analysis, as a universally recognized norm-
setting 
instrument, the CEDAW has become a powerful benchmark for 
women's rights groups in China to monitor the implementation of 
existing legislation. Most importantly, as a universal bill of 
rights for women, the CEDAW legitimizes and augments the voices 
of Chinese women's rights groups in their call for law reform 
and practice in China. These calls in China are a call of 
reforms taking place in analogous areas in other countries, 
however, international norms are sometimes a double-edged 
sword.
    Despite the fact that they are powerful tools to advocate 
for, and monitor, women's rights, China and the Chinese state 
party, too, has cloaked weak lawmaking in the garb of 
international norms. In spite of the rhetoric of the Chinese 
state, which emphasized at the CEDAW committee hearings in 
2006, that the new reforms to the law were governed by the 
CEDAW, theCEDAW concluding observations made after the fifth 
and sixth state party report in 2006 were very similar too, and 
reinforced prior concluding observations made after the third 
and the fourth state party report in 1999. This leads one to 
question the actual impact of the concluding observations on 
the state. What in fact had been adopted were the forms, and 
not the substance, of international human rights norms.
    Juxtaposed with the state's change-resistant articulation 
of women's rights, China's women's rights practitioners' 
innovative views of international women's rights norms has 
powerful transformative potential.
    The 2005 reforms on the law on the Protection of Women's 
Rights and Interests of 1999 was a milestone in women's rights 
advocacy in China and it spawned a panoply of gender-based law 
reform initiatives, both locally and nationally.
    The new and incubating developments in gender and the law 
in China are the result of reform initiatives that have sparked 
local to global engagements.
    First, the new law manifests a marked movement away from 
paternalistic notions on the protection of women and embraces a 
more human-rights-based concept of the empowerment of women.
    Second, and in direct consequence of the ambiguity and the 
aspirational nature of the national laws, has led women's 
groups to redirect their efforts to mobilize strong guidelines 
at the provincial level, thus creating greater opportunities 
for the vindication of women's rights at the local level.
    Although domestic violence has now been clearly prohibited 
in China, China still lacks national legislation on domestic 
violence. The existing prohibitions do not harmonize with 
international guarantees, however, women's groups have again 
been creative in their search for redress and have seized for 
themselves the mantle of change; some of the most widespread 
new developments in the area of domestic violence law and 
policymaking, and women's rights groups have helped shape a 
trail of reform in this area.
    The Supreme People's Court's Trial Guide to Domestic 
Violence-Related Cases in 2008 breaks new ground by providing 
protection orders in pilot courts under limited circumstances. 
Leading women's rights advocates hail this as a small step in 
law theory, but a big step in judicial practice. The challenge 
now is to expand the protective orders beyond the nine pilots 
and push the boundaries of its scope.
    Informed and animated by international guarantees and new 
developments in domestic violence lawmaking around the world, 
the anti-domestic violence network of China has developed a 
strong experts' draft on domestic violence. This experts' draft 
is a blueprint for national law reform and embraces many of the 
international law definitions of domestic violence. However, 
deep-seated traditional mores, such as son preference and 
devaluation of the girl child, are inextricably interrelated to 
violence against women and must be captured in any narrative on 
women's rights law reform and practice.
    Despite more women in employment, feminization of part-time 
work, gender bias in advertisements and recruitment, sex 
segregation in employment, the commodification and 
objectification of women, ghettoization of women in lower 
ranking employment, and the over-inclusion of protections in 
the law that stereotype and subordinate women, family 
responsibility-based discrimination, and cross-cutting and 
multiple forms of discrimination continue to disadvantage and 
subordinate women in China. Differential retirement practices 
that force both blue collar and professional women to retire 10 
years ahead of their male counterparts are some of the biggest 
threats to economic development in China.
    The law of employment promotion, in 2008, broke new ground 
by outlawing discrimination on the grounds of nationality, 
race, gender, religious belief, et cetera. The labor contract 
law, which came of age in 2008, too, reflects a paradigm change 
in labor relations, as it articulates that a contract must be 
based on principles of fairness, equality, and negotiated 
consensus.
    Despite these good-faith efforts, these laws have had a 
disproportionate impact on women workers and more women have 
been forced into part-time employment. The under-implementation 
of these laws in a time of global economic strain is a threat 
that runs through most laws.
    In the absence of a national anti-discrimination law, anti-
discrimination scholars and practitioners in China have 
developed a model anti-discrimination law based on ILO 
[International Labour Organization] guidelines and other 
international norms. This draft, known as the Experts' Draft on 
Anti-Discrimination, outlaws discrimination based on multiple 
grounds of discrimination, including nationality, gender, 
religion, and sexual orientation. And these experts' drafts, 
which are unique to China, are often blueprints for reform and 
catalysts for action.
    A similar experts' draft on sexual harassment and a sexual 
harassment guidelines for companies are exciting new 
developments initiated by Chinese scholars and once again 
augment the call for international guarantees.
    These dynamic initiatives by civil society scholars fill 
the lacuna left by inoperable and hortatory laws. For example, 
although the revised LPWRI, for the first time, outlawed sexual 
harassment, this prohibition only remains aspirational.
    The law does not provide a definition of sexual harassment, 
nor the elements of the offense. So far, of the 19 national 
cases that have gone to courts, not a single case has 
articulated sexual harassment as a cause of action, but based a 
claim for damage on other provisions in the law.
    The face of poverty in China is that of a rural women. Due 
to patriarchal norms, male-dominated village committees and 
autonomous village committees' regulations, women who are 
married out, divorced, widowed, or single are deprived of 
access to land tenure or responsibility law. Here, too, women's 
rights leaders have seized the opportunity for reform to call 
for a form of judicial review of village committee rulings and 
more egalitarian decisionmaking at the village levels to 
amplify women's voices in community affairs.
    In conclusion, although international human rights norms 
are yet to be read directly into lawmaking or judicial 
decisionmaking in China, women's rights advocates use these 
norms as a model to inform their advocacy and to bolster their 
arguments before a public or political forum.
    To this extent, human rights norms have been important 
building blocks of the emerging and evolving reform processes 
on behalf of women in China. China's women's groups have 
galvanized around the universally shared, rather than 
unilaterally held, goals of the CEDAW. It has sparked the 
process of transnational engagements and a more multilateral 
and comparative approach to law and practice.
    These internationalization processes have provided useful 
interpretative tools and a litmus test to gauge the gap between 
law and practice. In the final analysis, the rights' rhetoric 
remains largely symbolic and is not always fully translated 
into action. However, women's rights groups in China have 
emerged and reinvented themselves as the true agents who ignite 
debates that would otherwise lie dormant.
    Though China's progress in women's rights lawmaking has not 
delivered on all its promises, the journey continues and 
Chinese women's groups are constantly challenging themselves to 
find new and alternative ways to address unresolved issues, re-
imagining strategies, and finally to propel women's rights as 
pivotal to the rule of law. Thank you.
    Ms. Story. Thank you, Rangita.
    I will now turn the floor over to Katherine Zhao.
    [The prepared statement of Ms. de Silva de Alwis appears in 
the appendix.]

   STATEMENT OF KATHERINE ZHAO, DIVISION OF SOCIAL SCIENCES, 
       UNIVERSITY OF CHICAGO AND FORMER FULBRIGHT FELLOW

    Ms. Zhao. I want to first thank the Commission for giving 
me this opportunity to speak here today. Amid China's 
transition from a socialist to a more market-based country, 
there has been a host of social problems that has emerged that 
has disproportionately affected women. An important question to 
ask in this regard is: how has the Chinese state responded?
    Building on Rangita's insightful analysis, I will address 
three areas of progress, as well as four remaining challenges.
    One area of progress is improved laws and policies. Within 
the past 30 years, the central government has released various 
national laws and policies that prohibit the violation of 
women's rights. Yet, it is often local areas, such as Hunan 
Province, that push legislative boundaries and anticipate 
national legislation. For example, Hunan issued the first local 
regulations related to domestic violence in 1996 and it issued 
the first guiding opinions by a provincial high people's court 
in 2009.
    On a second level, there have been increased services, 
awareness, and access to justice. For example, there have been 
services in the form of hotlines, shelters, and activity 
centers that provide vocational training for women. In addition 
to greater public awareness, more women are using the courts 
and other dispute resolution channels to seek redress for their 
grievances. This has resulted in a small but growing number of 
successful cases, including the first criminal case involving 
sexual harassment.
    On a third level, there have been advocacy efforts that 
involve NGOs, scholars, women federation officials, and allies 
within the state. For example, advocates began to notice an 
increase in the use of violence by women against their 
batterers. The Supreme People's Court, partly as a way to 
provide alternatives and to allow for normal court proceedings, 
introduced protection orders on a trial basis in 2008 in select 
courts involving divorce cases.
    The introduction of protection orders has further mobilized 
advocates in their push for legislation against domestic 
violence. Specifically, in January 2009, a woman seeking 
divorce due to domestic violence was brutally assaulted by her 
husband. Her brother had previously asked the municipal court 
to issue a protection order on her behalf.
    The court refused, citing the non-binding nature of the 
trial project. This galvanized advocates to draft a judicial 
interpretation expert proposal that would make protection 
orders available 
nationwide. Many advocates see the passage of the judicial 
interpretation as a seat-warmer for the release of a long-
awaited anti-domestic violence law in China.
    In the case of Hunan Province, which has issued the most 
protection orders, active engagement by a variety of 
stakeholders has played a pivotal role in the number and kinds 
of protection orders that have been issued. For example, courts 
have issued protection orders that go beyond prohibiting 
violence, to specifying that the perpetrator must stay 200 
meters away from the victim's residence, place of work, or her 
family's place of residence.
    At the same time, there are remaining challenges. For 
example, despite written legislation, implementation lags. 
Notwithstanding vague legislation, officials may ignore, 
circumvent, or are not aware of certain legislation, especially 
when work related to gender equality is not linked to a 
performance assessment or promotion prospects.
    Enterprises and other organizations, when faced with who 
bears the cost of pregnancy and maternal leave, discriminate 
against women at every stage of their employment. In other 
words, the Chinese state has created inadequate structural 
incentives and distribution of resources to enforce policy 
related to gender equality.
    Organizing bodies such as the All-China Women's Federation 
exist, but they are under-staffed and have limited power. Some 
provincial-level women's federation offices may only have four 
or fewer staff members. In addition, some officials see 
economic development and the preservation of the family as 
incompatible with the promotion of women's rights, so the 
former takes precedence.
    Last, the lack of knowledge about legislation and services 
that help women, even by women's federation officials, 
reinforce the need to increase awareness. For example, the 
existence of government-run shelters is sometimes intentionally 
not publicized for fear that it will create demand that 
surpasses capacity.
    Second, another impediment to the realization of women's 
rights involves Chinese legislation that unintentionally 
affects women in a negative manner. For example, population 
planning policies that allow the parents of a daughter to have 
another child follow the 
belief that daughters are not as good as sons. In this regard, 
conducting a gender impact assessment might be helpful in 
anticipating harmful effects of legislation.
    A third challenge that remains is wider constitutional 
controls on freedom of speech and assembly, as well as rule by 
law, which make it difficult for China's female citizens to 
address their grievances through formal channels. Courts may 
refuse to take cases, especially cases involving sensitive 
issues such as land, and even when cases are successful, 
enforcement of the ruling remains an issue.
    Last, norms impede the full protection of women's rights, 
and these are often linked to discriminatory practices. One 
example is the practice of women marrying out of their village. 
There is a preference for sons because parents believe that it 
is sons who will take care of them in old age. Gendered norms 
also make these women vulnerable to deprivation of their access 
to land, including shares of moneys that are earned from land 
appropriation for urban or commercial development.
    At another level, slogans often heard in rural areas, such 
as ``Pumpkins aren't vegetables, women aren't people'' and 
``Why is a woman running for village head? Did all the men die? 
'' erode the state's commitment to gender equality.
    In conclusion, Chinese women increasingly have more tools 
to protect their rights, such as the law, but in practice 
victims cannot readily access these protections due to various 
hurdles. In the most motivated areas, women enjoy greater 
access to justice because there is a network of key 
institutions and stakeholders that publicize and enforce 
legislation related to gender equality.
    Thank you.
    Ms. Story. Thank you, Katherine.
    And now, finally, we will hear from Ambassador Lagon.
    [The prepared statement of Ms. Zhao appears in the 
appendix.]

    STATEMENT OF MARK LAGON, FORMER AMBASSADOR-AT-LARGE AND 
 DIRECTOR, OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS 
                (TIP), U.S. DEPARTMENT OF STATE

    Ambassador Lagon. Thank you very much. It's a pleasure to 
take part in the Commission's work, and I really appreciate the 
invitation.
    ``Human trafficking,'' which I have had occasion to work on 
in both the nonprofit world and the State Department, is a 
jargon term that is often misunderstood. It may, or often, 
involve migration but it is principally about exploitation, 
whether for commercial sex or labor. One sees in China ways in 
which human trafficking is particularly dangerous and harmful 
to women and girls, as it is all over the world.
    What kinds of trafficking have we seen in China in recent 
months which victimizes girls and women? A number of cases have 
been documented in the annual report done by the State 
Department's human trafficking office. They include instances 
of women lured and forced into commercial sexual exploitation 
abroad in Taiwan, Thailand, Malaysia, Japan, and Europe, 
including the United Kingdom, and even to Africa.
    There have been documented cases of women forcibly 
trafficked or manipulated to go to Ghana, then when returning 
to China, identified as victims, not being given the kind of 
depth of protection returned victims of trafficking need, in 
particular accounting for the possibility of retribution by the 
traffickers.
    Chinese women have been smuggled throughout the world and 
forced or lured into either commercial sex or forced labor 
because of the pattern of recruiters who get trafficking 
victims, purposely, deeply into debt. That is used as leverage. 
I met two women in Osaka, Japan who had been just such victims 
of manipulation, going to Japan, and it was in fact the debt 
which was the traffickers' key lever against them.
    Ethnic Hmong from Vietnam have been trafficked for forced 
marriages or into Internet sex operations in China. There have 
been allegations that government-led labor transfer programs 
have forced Uyghur girls and women to work unpaid in factories 
in eastern parts of the PRC based on false promises, because in 
fact trafficking involves not just sheer coercion, but 
manipulation. This, of course, is a counterpart to the policy 
of more and more Han Chinese coming into Xinjiang--moving 
Uyghur females out.
    North Korean women, in particular, have been victims of 
human trafficking, brought into the sex trade and forced 
marriage. Most troubling, they are typically deported if found 
by authorities. A few hundred are sent back to North Korea 
every month and face severe punishment in North Korea. That 
effort did not winnow down, but in fact was stepped up moving 
toward the Beijing Olympics.
    Last, an example, not just from North Korea, has been the 
vulnerability of Burmese who have been trafficked for forced 
marriage, and some, when found, were deported and were 
sentenced to three months in prison and were treated as 
criminals or a deportable alien, as opposed to victim.
    If one is to assess the record of Chinese authorities at 
various levels dealing with human trafficking, there have been 
a number of successes and improvements in recent years, in 
particular, law enforcement efforts in some places, aimed at 
sex trafficking, not so much trafficking for the purposes of 
labor. Examples include Fujian police finding a number of 
Vietnamese women who were trafficked into multiple provinces, 
such as Yunnan and Guangxi, for the purposes of bartered or 
forced marriage. Fujian police also broke up the efforts of 
gang members trafficking prostituted women for the purpose of 
being used by men in remote places. Finally, there have been 
some examples of convictions for trafficking of dozens of 
females into forced marriage in Guizhou Province.
    Other examples of success or progress include training 
border officials to see something as trafficking. The Ministry 
of Civil Affairs started to work on training with the 
International Organization for Migration, and there was 
mobilization of provincial women's federation offices, giving 
counsel and aid to human trafficking victims.
    Finally, a public awareness campaign was run by the All-
China Women's Federation, which is, of course, a kind of quasi-
governmental institution, especially aimed at awareness of 
young female migrant workers, although arguably that public 
awareness campaign is limited compared to the scale of the 
problem in the country.
    But that said, despite these successes, there are a number 
of failings which are tied to larger contributing factors which 
allow women and girls to be victimized in human trafficking. 
First, it is a penchant of PRC authorities to have the 
prevalence of a law and order approach or what I would call a 
``migration security'' approach as opposed to a human rights 
approach. The laws on the books in China do not match the terms 
of the Year 2000 Trafficking in Persons Protocol, the Palermo 
protocol to the UN Crime Convention, and China has not ratified 
that Palermo protocol.
    Domestic law does not cover labor trafficking. It 
insufficiently focuses on sex trafficking. Then as far as sex 
trafficking goes, girls who are between 14 and 18 in the sex 
industry are not considered sex trafficking victims, even 
though that is the international norm, that there is no 
question of volition when it comes to minors.
    The State Department assesses that the PRC Government has a 
tendency to conflate human trafficking and human smuggling, and 
the victims of human trafficking are sometimes punished. The 
All-China Women's Federation has noted that it has had to 
intervene in some cases of unjust punishment. There really is 
not a screening process for those who are arrested in 
prostitution to see whether they are actually sex trafficking 
victims.
    A second important failing is the policy with regard to 
desperate migrants' status, most notably in the case of North 
Koreans, who are treated as economic migrants rather than 
refugees. Arguably, the PRC authorities do not live up to their 
commitments under the 1951 Refugee Convention and its followup 
1967 protocol, and merely giving access to the UN High 
Commissioner for Refugees would help. I think some of these 
same policies on migrant status are also relevant to dealing 
with Burmese.
    A final area of problems lie in the general labor rights 
situation. Laws do not provide for sufficient fines and prison 
sentences for forced labor, and indeed labor infractions more 
generally do not have sufficient fines and prison sentences on 
the books, much less to speak of implementation. The household 
registration system in China, controlling the movement of 
internal migrants, is unfair, unevenly implemented, and 
contributes to the vulnerability of human trafficking.
    There are a couple of other contextual factors that are 
worth considering: a booming sex industry, which is a little 
bit a part of the context that Katherine Zhao refers to, a kind 
of movement from the highly ideological Communist system to a 
more Wild West capitalist system, and there is something of a 
moral vacuum and a booming sex industry. Most important as a 
contextual factor, though, is a demographic gender imbalance. A 
shortage of marriage-available women and the situation of a 
male-to-female ratio being imbalanced, fuels sex trafficking 
and forced marriage.
    The population policies of government authorities at all 
levels, even though softened from the one-China policy, 
unevenly implemented, does contribute to the problem. It is, of 
course, especially striking in the form of the most horrifying, 
direct curbing of reproductive choice: forced abortions and 
sterilizations.
    So as a final assessment, I would say, what are the 
prospects for reducing human trafficking as threats to women's 
and girls' rights? Given the lack of transparency of government 
authorities, sharing, for instance, no information whatsoever 
with the UN Office on Drugs and Crime or the Department of 
State in their preparation of their respective global reports 
on human trafficking, a lack of access given to international 
organizations, and limited freedom to non-governmental 
organizations, progress by nature in China will be slow.
    Despite all of this, I think dialogue with Chinese 
authorities is essential. I think it would be appropriate to 
appeal to Chinese authorities to say, you are frequently 
calling for economic, social, and cultural rights in a UN 
context rather than political and civil liberties. Human 
trafficking engages just those economic, social, and cultural 
rights for women and girls. Appealing to Chinese interests as a 
matter of law, and ultimately human rights in terms of economic 
rights and women's rights, is a very important part of the 
dialogue.
    I am happy to talk more about that in the rest of our 
session. Thanks.
    [The prepared statement of Ambassador Lagon appears in the 
appendix.]
    Ms. Story. Thank you, panelists, for your testimonies and 
perspectives on these important issues.
    We would now like to jump right into the question and 
answer session. I will seize the opportunity to ask the first 
question, and then we will open up questions to the audience.
    This is directed at all three panelists in your varying 
issue areas. Maintaining stability has been at the forefront of 
the Chinese Government agenda in recent years. In what ways do 
you perceive the women's issues that we've just discussed as a 
stability issue? Do these issues impact the stability in China 
as a whole?
    Ms. de Silva de Alwis. I'd like to build on your question 
and on Ambassador Lagon's comments. I think when we're talking 
of security, I think one of the greatest threats to security is 
the illegal sex-selective abortion issue, which really skews 
the sex ratios. CASS, the Chinese Academy for Social Sciences, 
predicts that in 10 years, there will be one out of five men 
that will be unmarried due to a lack of girls in China.
    I think that is going to cause an enormous threat to 
security in every way, and that will also accelerate marriage 
trafficking and violence in society, as well as violence 
against women. So I think that lies at the very heart of the 
security issue, the way in which sex-selective abortion, son 
preference, and the devaluation of girl children all play out 
and intersect in creating a threat to security.
    I think apart from that, the way in which women are 
excluded from employment because of over-protections in law, 
because of over-inclusive laws that not just disadvantage 
women, but exclude women from a variety of employment 
opportunities that are available to men, is an enormous threat 
to economic security, as well as the security of the family and 
the community.
    Again, differential retirement practices that exclude and 
marginalize women from continuing to work beyond 50, in the 
case of blue-collar workers, and beyond the age of 55 in the 
case of cadre workers, have an enormously negative economic 
impact, not just on women, but on the lives of their children, 
their families, and their community. So we have to see that 
again in that context of non-traditional security which affects 
economic security.
    And to again echo the Ambassador's words, although China 
has not ratified the ICCPR, the International Convention on 
Civil and Political Rights, China is a party to the ICESCR, the 
International Convention on Economic, Social, and Cultural 
Rights. Economic, social, and cultural rights speak to all of 
these issues that we have discussed in very powerful terms. So 
that is a great model through which to give voice to these 
issues and to hold China accountable to the guarantees under 
that convention.
    Ms. Zhao. Yes. I guess to add to that, I think that another 
realm in which women's issues is tied to social stability is 
access to land, especially for rural women, because access to 
land is the very essence of their livelihood. So being stripped 
of that access and being deprived of the economic benefits that 
come from losing access to the land or being able to use that 
land to either farm or to contract it out to other people, is a 
great source of insecurity not only to women, but also to their 
families. I see this as tied to the greater social stability 
climate in China.
    In addition, one thing I mentioned in my speech that I feel 
is underplayed is the choice between economic development and 
women's rights. I don't see them as mutually exclusive. I feel 
that protection of women's rights and the ability to give them 
access to 
employment and healthcare will also greatly benefit and 
further, for example, economic development goals that the 
Chinese Government may have.
    Ambassador Lagon. Well, I would agree with Rangita about 
the demographic trends, obviously. I think that there is a 
tinder box here that is in danger of being explosive in terms 
of the gender imbalance, and indeed, the problem of sex-
selective abortion and choosing not to have girls come into 
this world. Also, it is not just simply the matter of there not 
being more women. If women are being generally shut out from 
accessing rights, they will become more and more of a powerful 
force that might be destabilizing if their aspirations aren't 
met.
    I think the general policies on movement of workers, 
whether the movement of workers within China or migrating out 
of China, is a source of instability and the government 
authorities are not providing sufficient and even protections 
for those who move between regions of China.
    I found, when I was Ambassador to combat human trafficking, 
that there is no other place in the world which had as high 
fees that were paid by migrant workers to shark labor 
recruiters to get placed in other countries as China. That is a 
formula among unregulated labor recruiters for a leverage 
situation, where two years' salary in the promised job is what 
the worker has to pay up front. If the job turns out to be 
something different, they are trapped.
    Finally, I think the kind of corruption one sees around the 
world as the lifeblood of human trafficking is, of course, 
pertinent in China as well. Corruption is a destabilizing 
factor in many ways in China; trafficking would not flourish 
but for law enforcement and migration officials who were on the 
take. There have been more striking cases of corrupt officials 
who have been party to children in bonded labor situations. 
That is a destabilizing factor and not just a human rights 
issue.
    Mr. Grob. If I could just ask a follow-up to that. So the 
question, obviously, is to what extent are women's rights 
challenges in China a stability issue? To what extent do 
Chinese authorities view it as a stability issue? We know that 
when an issue is seen in the eyes of authorities as affecting 
stability, it triggers a set of responses that may be somewhat 
different from those that are triggered if they do not see it 
that way. Is there any evidence, based on your experience or 
research, that suggests whether this still is an open question, 
or are women's issues today perceived by authorities as a 
stability issue?
    Ms. de Silva de Alwis. I'd like to continue from where 
Katherine stopped as to China's embrace, and not just China's, 
but most Asian governments' embrace of the Asian values 
argument, which is really a convenient way for Asian 
governments to explain away the erosion of human rights 
violations and human rights standards. As Amartya Sen, a Nobel 
laureate and foremost development economist, argues, economic 
development, universal human rights norms and cultural 
sensitivity are not necessarily intrinsically opposing values.
    Important parts of Asian traditions include notions of 
human rights, so the very concept that Asian values are to some 
extent diametrically opposed to Western concepts of human 
rights is a faulty argument. These are universal human rights 
norms and therefore they are not in any way the priority or the 
prerogative of the West.
    Having said that, the idea of security, the construction of 
the word ``security,'' defers from the state construction of 
what is security to civil society construction of the term. I 
think the state constructs security in a very traditional way 
as a harmonious society, and a harmonious society as a 
cornerstone of what would be non-threatening to the state. So I 
think it is important for us to re-imagine security and 
deconstruct those conservative constructions of what is 
security and to re-imagine security in the image of all 
persons, women, men, and children. So I think that is really 
the challenge ahead: how do we reconstruct the term ``security? 
''
    Ambassador Lagon. Well, I would just say the way to look at 
this, I think, is to look at who is seen as the source of 
stability by the authorities. The heart of my opening statement 
is the pattern of authorities treating victims of human 
trafficking--women, girls, or men, for that matter--as those 
who are at fault, those who are the criminals, those who are 
the irregular migrants to deport and punish.
    They are seen as the source of the instability rather than 
the shark labor recruiter, the person who runs the brick 
operation in which children are under onerous trafficking 
conditions, and those who are manipulating or coercing people 
into commercial sexual exploitation.
    Ms. Zhao. An issue I see the government construing as a 
stability issue to a limited extent is domestic violence. There 
have been documented increases of women who commit a variety of 
crimes, whether it is homicide, or perhaps near-fatal injuries 
to 
either partners, another woman, basically a third party or 
their direct significant other due to long-term exposure to 
domestic violence.
    A comparative example might be the battered women syndrome 
that we have here. But an increase in women using violence to 
counter violence has been documented in a variety of provinces. 
In women's prisons, there have been more individuals who have 
committed crimes and been sentenced for a variety of crimes 
linked to marital disputes, and if you look at the reason why, 
it's mainly because they've been subjected to domestic 
violence.
    So I feel, as a response to this, this was an argument that 
women's advocates used as one way to, for example, have the 
Supreme People's Court agree to initiate a guide to provide 
protection orders and other measures that can alleviate women 
having to take such drastic measures.
    So we see in that way that it was a stability issue and it 
continues to be that there has been an innovative trial-and-
error take at the local level to see if other measures that go 
through more legalized or more institutional channels can 
alleviate some of these factors.
    For women, some of the reasons why they resorted to these 
drastic measures was because they couldn't get a divorce, or 
they tried to access social services, or they tried to access 
police or courts, but either the police wouldn't intervene or 
the courts wouldn't take their cases, or perhaps the man 
wouldn't agree to a divorce. So what you often see is they try 
to exhaust other sources before they turn to taking measures 
into their own hands.
    It wasn't that they initially wanted to do this, but it was 
more that other channels were not available or accessible. So I 
think we see, through the advocacy of a variety of NGO and 
civil society actors, the government is trying to once again 
provide channels where women can actually be free from 
violence.
    Ms. Story. Thank you.
    We'll open up the floor to questions from the audience. If 
you do have a question, please come to this microphone at the 
center.
    Also, I will remind you that there is a transcript that 
will be made public of this roundtable, so all questions will 
be on the record. If you do have a question, please state your 
name and affiliation, only if you would like it to be recorded 
on the transcript.
    Thank you. Kara Abramson?
    Ms. Abramson. Kara Abramson, Congressional-Executive 
Commission on China. Panelists noted some positive developments 
in the adoption of some laws and policies, but even if fully 
implemented, do these laws and policies ultimately have an 
empowering effect on women, or to some extent do they 
perpetuate the stereotype that women are weak, passive victims 
in need of protection? One thing that is prompting this 
question is, I was recently looking at the National Human 
Rights Action Plan, which lumps women together with children, 
so it certainly sends that message to some extent. Thank you.
    Ms. de Silva de Alwis. As I said earlier, there are 
overprotections in the law and those abound. The laws, 
especially the labor laws, are replete with provisions that are 
overprotective, stereotype women, segregate women, and exclude 
women from various kinds of employment, including travel-
related employment, employment above ground, underground, 
during certain periods of lactation and menstruation, and that 
is a very paternalistic notion of protection of women.
    ILO conventions, as well as the CEDAW, do not argue against 
all protections in employment, but they call for protections in 
employment that cover both men and women workers, therefore, 
what is needed is a more egalitarian application of these laws 
which will then not discriminate against a particular gender. I 
think that is very important, to make sure that these laws are 
gender-neutral and don't result in excluding one gender from 
employment opportunities.
    For example, the CEDAW Committee in 2006 called for a clear 
and concrete definition of discrimination which is lacking in 
Chinese laws. I think that is really the result of some of 
these exclusions in the law and overprotective legislation. The 
CEDAW calls for not just equal protection in the law, but 
addresses the way in which even facially neutral laws have a 
disproportionate impact on women, so both the direct and the 
indirect consequences of discrimination are covered under 
international guarantees.
    So the idea is to understand that even when a law seems 
gender neutral, facially neutral, that its impact might have a 
disproportionate impact and result in excluding women from 
employment opportunities. So as far as looking at these laws 
from the standpoint of the international human rights norms, 
the CEDAW provides the tools and the kind of benchmarks to test 
how these laws should then get really translated into practice.
    Ms. Zhao. Yes. One thing I noticed when I was in China from 
2008 to 2009 is there is active debate about whether we should 
have gender-specific or gender-neutral laws or policies. For 
example, with the Supreme People's Court guide related to 
broader 
marriage cases that introduced a protection order, actually the 
protection order is gender-neutral, both men and women can 
apply.
    There is at least one instance where a male has tried to 
apply, but I think the problem is that it is still seen very 
much as a women's issue, so in one way it stereotypes women, 
but in another way it actually negatively impacts men who may 
suffer from domestic violence or, for example, human 
trafficking, in which we see, again, the laws and also the 
national action plan that was released in 2008, are very much 
targeted toward women and children. These are traditionally 
seen as vulnerable groups, but at the same time it doesn't 
fully capture the reality of the situation.
    Ambassador Lagon. In the realm of human trafficking, I have 
been an advocate for the equal importance of focusing on sex 
trafficking and labor-related trafficking. The field is kind of 
bifurcated. There are some people who are moved by one or the 
other and I have been focused on the importance of parity.
    In the realm of sex trafficking, there is a natural gender 
bias that arises, but that is one of society and law 
enforcement authorizations reflexively blaming women in 
commercial sexual exploitation as being the ones who knew what 
they were getting into, and as being dirty. For that matter, in 
this country, if you look at the arrests that are involved in 
prostitution, of pimps, johns, and prostituted people, two-
thirds of them are women.
    So, training is something we need in this country as well 
as China. I think that it is important to treat human 
trafficking as something that threatens those human beings who 
are not getting treated as human beings in full. But there are 
some specific needs for protection and we should have dedicated 
services for human trafficking, and at times that requires an 
accounting for special needs of women and girls.
    Ms. de Silva de Alwis. Could I just add something to what 
Katherine also mentioned? Another lacuna in the Chinese legal 
system is that there aren't work-family reconciliation laws. 
The few provisions that relate to work-family reconciliation 
are targeted only toward women. Women are still considered the 
primary caregivers and are primarily responsible for family 
duties. Women are thus targets of discrimination based on 
family responsibility. That has a negative impact on women's 
equal treatment in employment and in the public sphere.
    So we need to look at the way in which these norms 
intersect, the way in which equality in the home has an impact 
on equality in the workplace and norms and laws that relate to 
employment practices must reflect the way in which gender 
equality in private and public intersect and are inextricably 
interlinked.
    That is why it is important that these new laws on 
employment echo the new changes that are taking place around 
the world and that are captured in international conventions 
that call for work-family reconciliation policies that 
privilege not only women, but also male caregivers who choose 
the right to give care to their family members.
    Ms. Oldham-Moore. Ambassador Lagon, how many TIP 
[Trafficking in Persons] visas are given to Chinese who come to 
the United States in terms of labor or sex trafficking? Also, 
what kinds of programs were there between DOJ [Department of 
Justice] and Chinese law enforcement?
    Ambassador Lagon. Great questions. I don't have statistics 
handy on the number of T visas given to trafficking victims to 
stay in the United States, but the pattern of trafficking 
victims coming from abroad is roughly this: 40 percent of the 
trafficking victims that come into the United States come from 
Latin America, about 40 percent come from East Asia. Patterns 
have waxed and waned about the countries from which the victims 
are originating in East Asia, but there used to be many more 
who were from Korea. The trend in recent years has been an 
increase from China and Taiwan.
    But one has to realize that the number of people who have 
received T visas is small. The number of victims of human 
trafficking abroad that have been certified is limited and it's 
a really small ``n,'' a social scientist would say, compared to 
the larger reality of total victims. But if you were to 
extrapolate, I think it is probably an increasing trend.
    One would think that the greatest area of possible 
cooperation between United States and Chinese authorities would 
be on some kinds of law enforcement training. Despite the 
resistance of Chinese authorities to share information with the 
United States for preparing the State Department annual report 
on trafficking, that is important. There have been beginnings 
of that kind of cooperation, particularly the International 
Criminal Investigative Training Assistance Program [ICITAP]. Of 
course, training often benefits from a third party, a third 
party not just being the law enforcement of the United States, 
but the law enforcement and the government--but civil society 
actors. That has been hard to pull off, a non-starter.
    Ms. Story. There's a question over here.
    Anna.
    Ms. Brettell. My name is Anna Brettell. I am also with the 
Congressional-Executive Commission on China. My question 
relates to the process by which the Anti-Domestic Violence 
Network devised their expert draft Anti-Domestic Violence Law 
and how it compares to the All-China Women's Federation's 
[ACWF] recent draft, especially in terms of how widely did they 
seek participation, from whom did they get input, and also how 
was the draft received by delegates in the National People's 
Congress [NPC]. Is the NPC seriously considering this draft? 
What are the prospects for the passage of an anti-domestic 
violence law?
    Ms. de Silva de Alwis. I think Katherine and I have a 
response to this. An interesting aspect of the domestic 
violence draft law that was drafted by the Anti-Domestic 
Violence Network [Network] is that it defines domestic violence 
very broadly, far more broadly than the ACWF draft's definition 
of domestic violence.
    The Network's draft includes, I think as I mentioned 
before, physical, sexual, verbal, economic, and psychological 
violence. But what I hear is that there is some kind of 
division or some kind of argument going on within the Network 
as to whether this is an overbroad definition of domestic 
violence, and how instances such as economic violence can be 
proved in court and how that could then be a cause of action. 
Our work is providing technical assistance on these definitions 
and how these definitions can then be actually invoked in a 
court of law and be operationalized in the case of litigation 
or in the implementation of the law.
    As for the process, my understanding is that the Anti-
Domestic Violence Network's draft was introduced in 2009, but 
there was no response from the National People's Congress on 
that, so I think they're planning to reintroduce that. The work 
is ongoing. The Anti-Domestic Violence Network continues to 
create forums at which this law can be introduced to the 
public. I need to clarify with Katherine whether, in 2008 it 
was introduced, and when they are hoping to introduce it again. 
I know that the sexual harassment guideline was also 
introduced.
    Ms. Zhao. Yes. I think it is interesting, because both the 
Anti-Domestic Violence Network, as well as the All-China 
Women's 
Federation, introduced their own versions of the Anti-Domestic 
Violence Law. It did seem like there was not so much 
communication between the two on definitions, as well as, for 
example, the scope of the protection order. However, this is 
only my own understanding.
    There are some indications that the women's federation's 
definition of protection orders might be more narrow, but in my 
time there it was much harder to get a draft or any sort of 
information regarding the actual draft that the women's 
federation was submitting. This also points to a transparency 
issue.
    I think the process--I mean, a lot of it does come from 
field investigations that people from the Network might do. 
It's also a network of scholars, so they have their own 
research. I think they try to get feedback from people that 
they might talk to during their field investigations, as well 
as area NGOs that are working on these issues. For example, 
with the Beijing Legal Aid Center, maybe some of the cases that 
they take, they might talk to the litigants there.
    In terms of the NPC, I think what I would add is that it 
does seem like both of these drafts were introduced in the 
early 2000s and they were not made part of the legislative 
agenda. It does seem like now there's room for one women's law, 
so there is this idea of, should we have an anti-domestic 
violence law or should we have a greater violence against women 
law?
    One forum that I attended, an NPC member did speak of--you 
know, they do their own research as well and he was part of the 
field investigations. I think for him, he needed to see the 
need for a domestic violence law. So I think in terms of the 
response, it did seem like at least some members may not be 
completely convinced that there is a need right now for this 
type of law.
    Ms. de Silva de Alwis. Yes. From my research, from 
reviewing the research that is shared with us by the Chinese, 
the Anti-Domestic Violence Network's law was introduced to the 
NPC in 2009.
    Ms. Abramson. The panelists talked briefly about sex-
selective abortion. I wonder if you could speak a bit more 
about this issue, including proposals in China to criminalize 
it. Thank you.
    Ambassador Lagon. Sex-selection abortion is a major 
problem, not only in China, but in India. It's often a problem 
that is swept under the rug and called other things, or kept 
secret. I think it's important that it be identified 
transparently as a crime.
    I don't know what the prospects are for that happening in 
China in short order, but the choice of having a male as 
opposed to a female is one that I think is a matter of rule of 
law. I mean, I see it as the ultimate issue of discrimination 
if you decide that a girl should not enjoy coming into this 
world.
    Ms. de Silva de Alwis. And Mark reminded us that this is 
not a problem just in China, but in India, too. But unlike in 
China, in India the law punishes sex-selective termination of 
pregnancy, which once again has not been translated fully into 
action, but it still provides remedies; it provides punitive 
elements that can be, to some extent a way of stopping these 
cultural traditions that value the boy child over the girl 
child. So that would probably be a good model for China to 
learn from.
    But apart from that, I think laws themselves, as we all 
agree, are futile unless they have corresponding enforcement 
mechanisms and provide for complementary education and 
awareness raising on equality between the sexes. I think the 
CEDAW--again, the Convention on Elimination of Discrimination 
against Women--calls for these guarantees to be translated into 
school curriculums.
    There are efforts around the world, wherever there is a 
cultural tradition that violates women's rights, like the 
practice of dowry, like the practice of unequal feeding 
practices, like the practice of child labor or child marriage, 
to introduce awareness-raising programs into the courses in 
primary and secondary schools.
    So I think it would be important if we could have the same 
kind of insight brought to bear on the education system in 
China, where issues such as son preference and the devaluation 
of the girl child are also addressed through the education 
system. This has been done, to some extent, with some results 
in countries in South Asia, where there is a decrease in child 
marriage because of the way in which the education system has 
been revamped to increase girls' access to and retention in 
schools.
    In India, the domestic violence law also provides 
prohibitions against the giving of dowries. So again, a 
prohibition against cultural tradition has been integrated into 
a domestic violence law. So I think it's important to think 
creatively when drafting China's 
domestic violence law. Again, how do we integrate traditional 
practices and cultural norms which violate women's rights into 
lawmaking so as to frame them as a threat to human security and 
to a life free from violence?
    The devaluing of the girl child is also a form of domestic 
violence because, as we know, women are forced to abort their 
girl babies, and that has an enormous psychological impact on 
the mother that leads to increased women's suicide rates. So 
this is not just a stand-alone issue, but an issue that really 
violates the rights of the family and threatens the security of 
the family.
    Mr. Grob. Ambassador Lagon?
    Ambassador Lagon. I agree, China does need to move that 
step toward where India is, so that there are laws on the 
books. India needs to go further with implementation, but 
first, laws on the books are an essential first step in China.
    Another comparative example worth raising is South Korea. 
The Republic of Korea has pursued, in concert with civil 
society organizations, a Love Your Daughter campaign, really 
trying to change mores, change thinking. It might, to some 
extent, given the rapid economic growth, offer some parallels 
for changing things in China. Because of the demographic 
situation, the minds of both females and males are going to 
have to be changed about this because of the prevalence of 
males.
    Mr. Grob. I wonder if I can just go back to something one 
of our panelists--Katherine, I believe it was you--mentioned 
about gender impact statements. Could you elaborate a little 
bit, and our other panelists as well, on the notion of gender 
impact statements? Is this something that is being discussed 
actively either in China or in policy circles? Is it an idea 
that is gaining some traction or is it one that you think 
should be gaining traction? In what ways might it be a very 
tangible item for dialogue and discussion?
    Ms. Zhao. Sure. I think one thing--well, this also ties 
back to more population planning issues--is this idea that was 
brought up by researchers from the Central Party School. They 
did a project related to population planning, asking, for 
example, why there still exists a preference for sons. The 
people in the villages they studied listed different reasons. 
For example, they said, sons care for them when they're older, 
or carrying on the family line, things like that.
    But then they also asked villagers can daughters do this as 
well, and they all said yes. So immediately there was sort of a 
disconnect with realizing that actually daughters can do the 
things that they say are the reason why they prefer sons--but 
still there's this norm that says, well, you know, we would 
rather have a son.
    I think one of the things that the researchers pointed to 
was policy, in the sense of the population policy that allows 
for certain populations to have a second child if their first 
child is a daughter. What they were pointing to is that this 
gives the idea that women are not worth as much, maybe worth 
half as much as men.
    For this idea, they had suggested if there had been more 
gender mainstreaming or a gender impact assessment--that was 
more a term that I concocted--but the sense that thinking about 
the impact of legislation might have prevented--or at least 
made legislators more conscious of--possible negative impacts 
on society and women in particular.
    So, the intent of the policy is, I think, well-meaning, but 
the impact on the ground might have been misleading. So I think 
there has been active talk of this idea of gender mainstreaming 
and lawmaking.
    So before a law is actually made, it would be beneficial to 
have more public participation and public debate about possible 
impacts of the law. I do think that there have been scholars 
who have raised this issue, and there does seem to be some 
discussion in China that I've seen.
    Ms. de Silva de Alwis. Gender mainstreaming is a very 
powerful legacy of the Beijing Platform of Action, and I think 
it should be a thread that is woven into every policy or 
legislation or action plan that should come out of the 12 areas 
outlined in the Beijing Platform of Action.
    So building on gender mainstreaming, I think we need to 
make sure that gender equality is not just an isolated issue, 
it's not just a matter of a single law on anti-gender 
discrimination, but an issue where anti-gender discrimination 
and gender equality norms and provisions are integrated into 
all laws and inform and animate all of the laws, whether they 
be the land rights law, sexual harassment laws, or employment 
laws, so that we ensure that the allocation of land, the 
allocation of property, the allocation of employment and social 
security benefits are carried out in a gender-equal manner and 
a non-discriminatory manner. That is really what gender 
mainstreaming is about.
    Gender mainstreaming has been further qualified by the 
United Nations to ensure that every law, every agency, must 
ensure that a percent of the budget be allocated for gender 
advancement, so in any agency, a part of their allocation must 
be allotted for gender-based training, for gender-sensitive 
training. So I think that is an important element that should 
be absorbed into the Chinese legal system.
    As for gender impact, again, it's important that we go 
through the Chinese legal system and privilege gender-neutral 
laws, but also ensure the equal impact of these laws on women. 
I think that is why it is so important to make sure that these 
laws are justiciable in a court of law.
    As I pointed out earlier, implementation of laws is weak. 
As for international conventions--never are international 
conventions invoked in a court of law in China, but hardly are 
the actual provisions on anti-discrimination or on gender 
equality used as a cause of action in a court of law. So, that 
is problematic.
    You mentioned Korea. One of the ways in which Korea 
reversed its son preference was by mounting an aggressive fight 
against that, and bringing litigation on gender equality, 
making sure these laws are invoked in courts of law and that 
judges are also made aware of and cognizant of gender equality.
    Audience Participant. Just bringing together two of the 
themes that I think you all brought up: one is legal reform, 
the other is cultural reform. Many have said that some Chinese 
traditional values discriminate against women in the workplace 
or in the community.
    What I can imagine, is I can imagine a scenario where the 
male/female ratio increases. You have a surplus of males. That 
gives males more power in the workplace or in the community. 
Therefore, if you try to institute, at the same time, legal 
reform giving women more rights, you'll be coming up against 
larger opposition and you will have, therefore, strife in the 
community that is an unwanted sort of backlash of that.
    I was wondering if you could comment on that, and if China 
has recognized this issue.
    Ambassador Lagon. That's a very good question about the 
impact of the demographic trends on making changes in the law. 
I don't know whether this has been recognized by Chinese 
authorities--an awareness of the instability that comes from 
the male/female ratio is coming, but I'm not sure that this 
element of the 
instability has been appreciated.
    I would just say, as a prescriptive matter, that those who 
are experts on China, those who have occasion to be in dialogue 
with civil society and government authorities in China should 
not propose a ``go slow'' approach on changing the norms that 
are written into law. Well, disappointing as it is throughout 
the world and in China to see laws on the books not 
implemented, it is important to get those laws and norms 
written down. I would not think an implication of your 
observation is that we should go slow on the norms being 
codified.
    Ms. de Silva de Alwis. I would agree with his statement.
    Mr. Grob. Any other questions?
    Ms. Oldham-Moore. Could you talk about the impact on ethnic 
minority women in China, Tibetans, Uyghurs, Hui? How is their 
experience different, both from a legal framework and also from 
an economic standpoint?
    Ambassador Lagon. Well, there is a pattern of all sorts of 
people migrating through the provinces of China looking for 
better economic opportunities. I think there is a more acute 
situation where there are robbed economic opportunities, when 
there is a concerted decades-long policy of the government to 
neutralize the distinct culture of certain areas--of Tibetans, 
and of Uyghurs in the Xinjiang Uyghur Autonomous Region.
    Importantly, economic opportunity is reduced for ethnic 
women and girls in those situations. They are more desperate to 
move, to look for other opportunities, which is unfortunate 
because it means sort of ceding their territory, and the 
protections that exist in general arguably are weaker for those 
ethnic minorities.
    Ms. de Silva de Alwis. I'd like to respond by commenting on 
the way in which evolving law reform has captured the need to 
look at multiple forms of discrimination. As I said earlier, 
the Law of Employment Promotion of 2008 broke new ground by 
outlawing discrimination on the grounds of nationality, race, 
gender, religious belief, age, and physical disability. For the 
first time an articulation of the law dismantles discrimination 
based on multiple grounds, including race and nationality.
    But what is most exciting is this new law that is being 
drafted by the experts, which I said is known as the Experts 
Draft on Anti-Discrimination outlaws discrimination based on 
multiple grounds, including nationality, gender, religion, 
beliefs, disability, physical characteristics, age, health 
conditions, and sexual orientation, and other factors. So I 
think this is the promise of the law, and I hope this promise 
is fulfilled.
    Mr. Grob. Any other questions from the audience? Back 
there.
    Ms. Purdy. Lindsey Purdy from the Laogai Research 
Foundation. Secretary Clinton will be delivering remarks at the 
United Nations on Friday morning concerning the 15th 
anniversary of the Beijing Conference. I was just wondering, to 
bring this back to international policy, if each of you would 
address whether or not her remarks should be hopeful with 
regard to China.
    Ms. de Silva de Alwis. As I said, civil society advocacy is 
animated by the human rights traditions that were spawned by 
the Beijing Conference. That had an enormous impact on their 
advocacy. In fact, they look at the second wave of feminism in 
China as that which began in 2005, so that was an important 
watershed moment in the history of women's rights, not just in 
China, but around the world and it really resonated most with 
women's rights advocates in China.
    This is the tool that they use to launch their advocacy. 
This is what they use to justify and legitimize their advocacy. 
So it is one of the most powerful frameworks in which to locate 
their human rights advocacy and justify the demands that they 
make. So, the Beijing Conference was really a watershed moment 
and its legacy has been enormous.
    So, yes, as far as the impact of international human rights 
norms, the impact of international conferences on China as a 
mobilizing, galvanizing, organizing tool is enormous and I 
would not understate that. So I do hope that the Secretary's 
remarks that she made 15 years ago, that women's rights are 
human rights, are heard once again very loudly and clearly 
across the world.
    Mr. Grob. Ambassador Lagon, then Katherine Zhao.
    Ambassador Lagon. Well, you can count on Secretary Clinton 
emphasizing women's rights. It's the single issue on human 
rights that she has been most vocal about in her tenure. I 
think it's quite important for the administration of the United 
States to take advantage of multilateral instruments and 
identify standards that are not just ones that are articulated 
in the United States, and are important and universal as we 
sense they are, but citing those international instruments.
    But I do think it's the responsibility of the United States 
to hold a high standard, and I think we would be doing a 
disservice to the future of women in China to overstate how far 
toward the aspirational aims laid out in Beijing Conference 
documents from 15 years ago which China has gotten. There is a 
long way that has been moved and achieved in the last 15 years, 
but it would be very good for the United States to cite this 
international set of norms and say there is a long way to go.
    Mr. Grob. Katherine?
    Ms. Zhao. May I just add one remark? I think with regard to 
China, there is the possibility to be hopeful. There are a lot 
of challenges, some of which I documented in my speech. But I 
feel if we just look at the 1995 Beijing platform, for example, 
in which civil society was relegated to an off-site location 
from Beijing, and then we look at periodic reports to CEDAW in 
which a shadow report by civil society in China was not even 
allowed, to now where the government has allowed more input by 
Chinese civil society in planning Beijing + 15.
    So I feel if we just look at it in terms of a temporal 
comparison, there has been progress along the lines of more 
civil society input that we need to recognize. That's 
definitely there, but at the same time I feel like some 
challenges which I mentioned, and some that I haven't 
mentioned, still remain.
    Mr. Grob. Additional questions from the audience? Abbey, 
did you want to ask a question?
    Ms. Story. I do have another question about civil society 
in particular. Based on your research and anecdotal experience, 
is the Chinese Government imposing any restrictions on women's 
rights-focused organizations specifically, or are restrictions 
placed on civil society organizations in general, having an 
impact--and what kind of impact--on women's rights-focused 
organizations?
    Ambassador Lagon. My own observation is that there is a 
consistency. I wouldn't say there's any special harassment of 
women-related NGOs. I think just in general, if it isn't a 
GONGO, a 
government-organized non-governmental organization, there isn't 
going to be much room for it.
    I think on this, this is the side of affairs where the 
Chinese Government is classically governing too much, not 
leaving enough room for civil society. But it is important, 
including for people like me who in the past sort of had a bias 
toward thinking the only way to understand the problem of 
governance in China is to see too much authority, to see that 
in fact the human trafficking element of women's and girls' 
rights is an example of, in another respect, government 
governing too little.
    Ms. de Silva de Alwis. China is one of the few countries 
that does not submit a real, authentic shadow report to the 
CEDAW Committee. Whatever shadow reports that are forwarded to 
the CEDAW Committee are done outside of China and not within 
China, and the only so-called shadow report is almost always 
written by the All-China Women's Federation, which is really a 
part of the government.
    So that is really very sad, given the expertise of the 
women's movement in China and the sophistication of the women's 
groups in China, that they are not even permitted to write a 
shadow report, to voice their concerns, to have their voices 
heard; they have been silenced. So that is an unfortunate 
aspect of the government's hold on civil society because if 
that dormant role of the civil society was unleashed, I think 
what we would see is actually a better framing of the state in 
the light of international norms.
    That is why it is so important that, like in other 
countries, the women's NGOs not only hold the state accountable 
to women's rights violations, but are partners with the state 
to implement these norms and work in partnership with the state 
to monitor the implementation of women's human rights. So I 
think that's the missing link, that civil society is not seen 
to be partners with the government in implementing and 
monitoring women's human rights.
    Mr. Grob. Thank you.
    Katherine?
    Ms. Zhao. I agree with Mark. I see restrictions on civil 
society organizations across the board, not particularly 
greater restrictions on organizations working on women's 
rights. In many ways, there are similar patterns of challenges 
in terms of gaining legal status or being able to work with 
government organizations.
    There are definitely variations in terms of restrictions on 
organizations in different sectors, and government agencies in 
certain parts of the country might be more willing to work with 
NGOs, but it depends. Of course, across the board, there is 
still not enough collaboration between state and society.
    One area of restriction that I do see for women's rights is 
work with sex workers. Due to the illegal nature of 
prostitution, NGOs that work on this issue are doubly 
stigmatized in the sense that it's very hard for them to gain 
legal status because of the population they're serving. It 
makes it extremely hard for them to really operate as any sort 
of vibrant civil society.
    Mr. Grob. Finally, just to bring this to a close--and I 
thank you all for participating today--it has been a great 
privilege and honor for us. If you had 30 seconds to recommend 
to President Obama or to Secretary Clinton one thing that they 
could do, including one thing that they might say to President 
Hu or Premier Wen, or one thing they could do as a matter of 
U.S. Government policy, to promote and advance the cause of 
women's rights in China, what would it be?
    Ms. de Silva de Alwis. I would say that women's human 
rights are critical to the advancement of the rule of law and 
good governance in China. There is nothing as important in the 
political economy of development in China as women's 
empowerment.
    Mr. Grob. Katherine?
    Ms. Zhao. Something I mentioned earlier is the sense that 
women can participate and positively promote economic 
development. Women having more access to education--actually 
higher education, women, depending on the discipline, have 
similar, if not higher, attendance rates. So in terms of human 
capital, they have a lot to contribute. I feel the government 
can benefit from women's participation and I hope that they see 
that economic development and women's rights are not mutually 
exclusive.
    Ambassador Lagon. Well, it's important for the United 
States to emphasize that human rights are universal and that 
women and girls need to be recognized in terms of their basic 
dignity in China, as everywhere else. And appealing to China's 
authorities based on stability as well is important.
    To pick up on what you were saying, a movement of thinking 
over time by the Chinese authorities that civil society actors 
are in fact a source of cushioning shock absorbers and 
partners--not threats to the grip on power of Chinese 
Government--is an important realization that American 
authorities can play a role in delivering the message about.
    Mr. Grob. On that note, I would like to thank you all for 
coming. I'd like to thank our panelists today for your input 
and comments. You've given us much to ponder and contributed 
much to the debate. So, thank you very much.
    With that, this roundtable is adjourned.
    [Whereupon, at 3:30 p.m., the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


            Prepared Statement of Rangita de Silva de Alwis

                             march 8, 2010
    The Beijing Women's Conference in 1995 and its progeny the Beijing 
Platform of Action marked a watershed event in the history of local and 
global women's movements. The clarion call to take Beijing back home 
resonated both locally and globally and reverberated in China among 
women's rights scholars and practitioners.
    Fifteen years after this historic event and 30 years after the 
landmark Convention on the Elimination of All Forms of Discrimination 
against Women (CEDAW) that China has ratified provides an important 
turning point to reflect on how the CEDAW has catalyzed gender-based 
lawmaking and mobilized women's groups in China to hold stakeholders 
accountable to the letter and spirit of the guarantees enshrined in the 
CEDAW. In the final analysis, as a universally recognized norm setting 
instrument, the CEDAW has become a powerful benchmark for women's 
rights groups in China to monitor the implementation of existing 
legislation. Most importantly, as an universal bill of rights for 
women, the CEDAW legitimizes and augments the voices of Chinese women's 
rights groups in their call for reform in law and practice in China. 
These calls in China echo the reforms taking place in analogous areas 
in other countries.
    However, international norms are sometimes a double edged sword. 
For despite the fact that they are powerful tools to advocate for and 
monitor women's rights, China too has cloaked weak lawmaking in the 
garb of international norms. In spite of the rhetoric of the Chinese 
State which emphasized at the CEDAW Committee hearings in 2006 that the 
new reforms to the Law on the Protection of Women's Rights and 
Interests (LPWRI) were governed by the CEDAW committees Concluding 
Observations, the CEDAW Committees Concluding Observations made after 
the 5th and 6th State report in 2006 were very similar to and 
reinforced prior Concluding Observations made after the 3rd and 4th 
State report in 1999. This leads one to question the actual impact of 
these Concluding Observations on the State. What in fact had been 
adopted were the form and not the substance of international human 
rights norms.
    The Chinese delegation acknowledged to the CEDAW Committee that 
there lies ahead ``a fairly long historical process to progress from de 
jure equality to de facto equality.''
    Juxtaposed with the State's change resistant articulation of 
women's rights, China's women's rights scholars and practitioners 
innovative use of international women's rights norms has powerful 
transformative potential. The 2005 reforms to the LPWRI of 1995 was a 
milestone in women's rights advocacy in China and spawned a panoply of 
gender based law reform initiatives both locally and nationally.
    I will share with you a thumbnail sketch of the highlights of the 
new and emerging developments in gender and the law in China and the 
exciting way in which these reformist initiatives have sparked local to 
global engagements. Firstly, the new laws manifest a marked movement 
away from the paternalistic notions on the protection of women toward 
embracing a more human rights based concept of the empowerment of 
women. Secondly, an indirect consequence of the ambiguous and the 
aspirational nature of the national laws such as the LPWRI has led 
women's groups to redirect their efforts to mobilize strong guidelines 
at the provincial level thus creating greater opportunities for the 
vindication of women's rights at the local level. For example, 19 of 
the 31 provinces and, autonomous regions have formulated implementing 
regulations for operationalizing the women's law and 24 provinces have 
some sort of services for victims of domestic violence.
                           domestic violence
    Although domestic violence has now been clearly prohibited by the 
revisions to the LPWRI, as well as addressed by provisions of the 
revised Marriage Law, China still lacks national legislation on 
domestic violence. ``The horse I buy and the wife I own are mine to 
beat'' is a popular folk saying and the concept of woman as man's 
property still exists in many parts of China.
    The existing provisions are ambiguous in nature and are silent on a 
definition of domestic violence or the scope of the law as required by 
international human rights guarantees. However, women's groups have 
been creative in their search for redress and have seized for 
themselves the mantle of change. Some of the most vibrant new 
developments are in the area of domestic violence law and policy making 
and the women's rights groups have helped shape a trail of reform.
    The Supreme People's Court Trial Guide to Domestic Violence Related 
Cases, March of 2008, was published by the Applied Legal Institute of 
the Supreme People's Court and breaks new ground by providing 
protection orders in pilot courts under limited circumstances. Leading 
women's rights advocates hail this as a ``small step in law theory but 
a big step in judicial practice.'' The challenge now is to expand the 
protective orders beyond the 9 pilots and push the boundaries of its 
scope.
    Another new development, the Several Opinions on Prevention and 
Prohibition from Domestic Violence in August 2008 provides an inter 
department collaboration for addressing and handling domestic violence 
cases.
    Informed and animated by the Declaration on the Elimination of 
Violence against Women, (DEVAW), the CEDAW and new developments in 
domestic violence lawmaking around the world, the anti-domestic 
violence network has developed a strong experts draft on domestic 
violence. This experts draft is a blue print for national law reform 
and embraces many of the international law definitions on domestic 
violence including physical, sexual, verbal and psychological violence; 
broadens the scope of the law and provides much needed remedies for 
victims. Set up in 2000, the domestic violence network is one of the 
strongest networks of civil society advocates in China spanning 28 
provinces and autonomous regions and is an important narrative of civil 
society engagement in China.
    Incubating developments include the new Supreme Court 
Interpretation on Handling Marriage Cases Involving Domestic Violence 
and an ACWF Guideline on the Prevention of Domestic Violence. These 
efforts to draft provincial level laws and national level guidelines 
complement the continuing call for a national domestic violence law and 
echo international guarantees to prevent and address domestic violence.
                  gender discrimination in employment
    Although the employment of women in public and private enterprises 
have increased, women are still concentrated in the lower strata of the 
informal sector.
    Feminization of part time work, gender bias in advertisements and 
recruitment that call for particular height, weight and looks among 
applicants, sex segregation in employment, the commodification and 
objectification of women, family based discrimination, and cross- 
cutting and multiple forms of discrimination disadvantage and 
subordinate women in China. Differential retirement practices that 
force both blue collar and professional women to retire ten years ahead 
of their male counterparts are some of the biggest threats to economic 
development in China.
    The Law of Employment Promotion 2008 breaks new ground by outlawing 
discrimination on the grounds of nationality, race, gender, religious 
belief, age and physical disability. The Labor Contract Law which came 
into force in 2008 too reflects a paradigm change in labor relations as 
it articulates that a contract must be based on principles of 
lawfulness, fairness, equality, voluntariness, negotiated consensus and 
good faith. Despite these good faith efforts, these laws have had a 
disproportionate impact on women workers. The disparate impact of these 
laws result in more women being forced into part-time employment. The 
under implementation of these laws in a time of global economic strain 
is a thread that runs through most laws.
    Provincial level laws provide for more effective articulations of 
gender equality. For example, the Ways for the Implementation in 
Guangdong Province establishes that no woman worker can suffer the 
termination of labor or decrease in wages or responsibility due to 
marriage, pregnancy, maternity leave, lactation or other reasons.
    In the absence of a national anti- discrimination law, anti-
discrimination scholars and practitioners in China have developed a 
model anti- discrimination law based on ILO guidelines and other 
international norms. This draft law known as ``The Expert's Draft on 
Anti-Discrimination, outlaws discrimination based on multiple grounds 
of discrimination including: ``nationality, genders, status, religion, 
beliefs, disability, physical characteristics, age, health conditions, 
sexual orientation and other factors which harm equal opportunities and 
treatment in employment and occupation of laborers.'' These unique 
experts draft laws in different areas of law in China including 
domestic violence, anti- discrimination and sexual harassment are often 
blue prints for reform and catalysts for action.
                           sexual harassment
    A similar experts draft on sexual harassment and a sexual 
harassment guideline for companies are two exciting new developments 
initiated by Chinese scholar practitioners and are informed by ILO 
Conventions as well as the CEDAW.
    These dynamic initiatives by civil society scholars fill the lacuna 
left by inoperable and normative laws. For example, although the 
revised LPWRI for the first time outlaws sexual harassment, this 
provision remains aspirational. The law does not provide a definition 
of sexual harassment, nor does it provide the elements of the offense. 
So far of the 19 national cases that have gone to courts no case has 
articulated sexual harassment as a cause of action but based a claim 
for damage on other provisions in the law.
                     rural women's property rights
    With 70 percent of women in rural areas, the face of poverty in 
China is often that of a woman. Due to patriarchal norms, male 
dominated village committees and autonomous village committee 
regulations, women who are married out, divorced, widowed or single are 
deprived of access to land tenure or ``responsibility land.''
    Here too, women's rights leaders have seized the opportunity for 
reform to call for a form of judicial review of village committee 
rulings. Thus Article 63 of the Property Law of 2007 allows an 
aggrieved party to appeal to the People's Court when her rights have 
been threatened by decisions made by a collective economic organization 
or villagers committee. In another instance of creative advocacy, women 
in Nanjing and Guandong have mobilized efforts locally to engage in 
more egalitarian decision making at the village level. As a result, the 
revised village rules include a greater role for women in participation 
in community affairs.
    The Land Management Law that is currently being drafted provides a 
new opportunity for women to have their voices heard in the law making 
process.
    In conclusion, although international human rights norms are yet to 
be read directly into lawmaking or judicial decision making in China, 
women's rights advocates use these norms as a model to inform their 
advocacy and to bolster their arguments before a public or political 
forum. To this extent, human rights norms have been important building 
blocks of the emerging and ongoing reform processes on behalf of women 
in China. China's women's groups have galvanized around the universally 
shared rather than unilaterally held goals of the CEDAW. It has sparked 
a process of transnational engagements and a more multilateral and 
comparative approach to law and practice. These internationalization 
processes have provided useful interpretive tools and litmus tests to 
gauge the gap between laws and practice.
    In the final analysis the rights rhetoric remains largely symbolic 
and is not always fully translated into action. However, women's rights 
groups in China have emerged and reinvented themselves as the true 
agents of change who have ignited debates that would otherwise be 
dormant. Though China's progress in women's rights law making has not 
delivered on all its promises, in fact, as seen in the Chinese context, 
the process for change does not end but begins with the drafting of a 
law. Seizing the political moment, women's groups continue to forge 
platforms to shape public opinion and policy. The journey continues and 
Chinese women's group are constantly challenging themselves to find new 
and alternative ways of addressing unresolved issues and re-imagining 
strategies.
                                 ______
                                 

                  Prepared Statement of Katherine Zhao

                             march 8, 2010
                              introduction
    I wish to first thank the Commission for the opportunity to discuss 
China's protection of women's rights, especially on International 
Women's Day. Amidst China's transition from a socialist to a more 
market-oriented country, a host of social problems has emerged that 
disproportionately affect women. How has the Chinese state responded? 
Building on Rangita's insightful analysis, I will highlight three areas 
of progress and four remaining challenges by drawing on developments 
from domestic violence, land rights, and employment discrimination.
                           areas of progress
Improved laws and policies
    Within the past 30 years, the central government has released 
national laws and policies that prohibit domestic violence, employment 
discrimination, and the violation of women's land rights, and gender 
equality is one of the seven basic state policies. Yet it is often 
local areas such as Hunan province that continually push legislative 
boundaries. On the heels of the Beijing Conference on Women, it issued 
the first local regulations on domestic violence in 1996. In April 
2009, the Hunan High People's Court issued the Guiding Opinions 
Regarding Strengthening Judicial Protections for Women Who Suffer from 
Domestic Violence (Trial). Intensely debated and only 21 articles long, 
this is China's first guiding opinion by a provincial-level court 
specifically on domestic violence cases.
Increased services, awareness, and access to justice
    There have also been increasingly more social services available to 
women, whether in the form of national and local hotlines for domestic 
violence or human trafficking, shelters, or activity centers that 
provide vocational training. In addition to greater public awareness as 
a result of media campaigns, more women are using the courts and other 
dispute resolution channels to seek redress for their grievances. This 
has resulted in a small but growing group of successful cases, 
including the first criminal case involving sexual harassment. An 
increase in legislation and social services reflects the prevalence of 
social problems and the state's desire to address these problems 
through institutionalized or semi-formal channels.
Advocacy efforts
    One of the exciting developments in women's rights revolves around 
innovative advocacy efforts by NGOs, scholars, women federation 
officials, and allies within the state. Advocates began to notice an 
increase in the use of violence by women against their batterers;\1\ 
partly as a way to provide alternatives and to allow for normal court 
proceedings, the Supreme People's Court introduced protection orders on 
a trial basis last year in select courts involving divorce cases. The 
preliminary impact of protection orders include (1) enforcement that 
has exceeded expectations and encouraging women who previously felt 
afraid to come forward (2) greater interagency cooperation, 
specifically between courts and the police (3) the mobilization of 
advocates in their push for legislation against domestic violence. 
Specifically, in January 2009 a woman seeking divorce due to domestic 
violence was brutally assaulted by her husband. Her brother had 
previously asked the municipal court to issue a protection order on her 
behalf. The court refused, galvanizing advocates to draft a judicial 
interpretation experts' proposal that would make protection orders 
available nationwide. Many advocates see the passage of a judicial 
interpretation as a ``seat warmer'' for the release of the long-awaited 
Anti-Domestic Violence Law in China. Lastly, protection orders have 
also (4) generated public debate, most noticeably online.
---------------------------------------------------------------------------
    \1\ According to data from Shaanxi province women's prisons, there 
was a 32.47 percent increase in 2005 from the same period in 2004 of 
female offenders who commit crimes involving the use of violence to 
counter violence and enter prison. There was a 21.43 percent increase 
in 2006 from 2005.
---------------------------------------------------------------------------
    In the case of Hunan province, which has issued the most protection 
orders, active engagement by women federation officials, judges, police 
officers, as well as the support of the political-legal committee in 
the capital Changsha, has played a pivotal role in number and kinds of 
protection orders that have been issued. For example, they have issued 
protection orders that go beyond prohibiting violence to specifying 
that the perpetrator must stay 200 meters away from the victim's 
residence, place of work, or her family's place of residence.
                          remaining challenges
Lagging implementation and the need for more public awareness
    Despite written legislation, implementation lags. Notwithstanding 
vague legislation, officials may ignore, circumvent, or not know about 
certain legislation, especially when work related to gender equality is 
not linked to an official's performance assessment and promotion 
prospects. Similarly, enterprises and other organizations, when faced 
with who bears the cost of pregnancy and maternal leave, discriminate 
women at every stage of her employment from recruitment, compensation 
and benefits, promotion to retirement. In other words, the Chinese 
state has created inadequate structural incentives and the distribution 
of resources to enforce policy related to gender equality. Though 
organizing bodies such as the All-China Women's Federation exist, they 
are understaffed and have limited power; some provincial-level women's 
federation offices may only have four or fewer personnel. In addition, 
some officials see economic development and the preservation of the 
family as incompatible with the promotion of women's rights, so that 
the former takes precedence.
    Lastly, the lack of knowledge about legislation and services that 
help women, even by women federation officials, reinforce the need to 
increase awareness. For example, government-run shelters are sometimes 
intentionally not publicized for fear that it will create demand that 
surpasses capacity.
Unintentional effect of laws and policies
    Another impediment to the realization of women's rights involves 
Chinese legislation that unintentionally affects women negatively. 
Population planning policies, for example, that allow the parents of a 
daughter to have another child unwittingly further the belief that 
daughters are not as good as sons. Additionally, restrictions in the 
2002 Rural Land Contracting Law and the 2007 Property Law against 
readjustments make it extremely difficult if not illegal to adjust the 
land to accommodate women's migration outside of the village. Another 
subset of legislation includes protective laws that dictate women's 
early retirement age or participation in certain types of work. In this 
regard, conducting a gender impact assessment might be helpful in 
anticipating possible harmful effects of legislation on millions of 
Chinese citizens.
Constraints on advocacy, access to justice, and the realization of the 
        rule of law
    Wider institutional controls on freedom of speech and assembly as 
well as rule by law not only contravene China's international 
commitments and its own laws, but make it difficult for China's female 
citizens to address their grievances through formal channels. For 
example, courts sometimes refuse to take cases involving land, and even 
when cases are successful, enforcement of the ruling remains an issue.
Lingering patriarchal norms
    Norms impede the full protection of women's rights, and are often 
tied to discriminatory practices. The practice of women marrying out of 
the village, for example, fuels the preference for sons because parents 
believe that it is sons who will take care of them in old age. It also 
makes these women vulnerable to the deprivation of their access to 
land, including shares of monies that are earned from land 
appropriation for urban or commercial development. At another level, 
slogans often heard in rural areas such as ``pumpkins aren't 
vegetables, women aren't people,'' and ``why is a woman running [for 
village head], did all the men die?'' erode the state's commitment to 
gender equality, especially when condoned by those in power.
    In conclusion, Chinese women increasingly have more tools to 
protect their rights, such as the law, yet in practice, victims cannot 
readily access these protections due to various hurdles. In the most 
motivated areas, women enjoy greater access to justice because there is 
a network of key institutions and stakeholders that publicize and 
enforce legislation related to gender equality.
    I look forward to questions you may have and further discussion. 
Thank you.

                       Submission for the Record

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
